1320

933 FEDERAL REPORTER, 3d SERIES

short of statutory patentable subject matter.

drug application infringed the patent.
Competitor appealed.

CONCLUSION

Holdings: The Court of Appeals, Lourie,
Circuit Judge, held that:

We have considered the parties’ remaining arguments and find them unpersuasive. Accordingly, the Final Judgment of
the U.S. District Court for the Eastern
District of Virginia is
AFFIRMED

,
ELI LILLY AND COMPANY,
Plaintiff-Appellee
v.
HOSPIRA, INC., Defendant-Appellant
Eli Lilly and Company,
Plaintiff-Appellee
v.
Dr. Reddy’s Laboratories, Ltd., Dr.
Reddy’s Laboratories, Inc.,
Defendants-Appellants
2018-2126
2018-2127
2018-2128
United States Court of Appeals,
Federal Circuit.
Decided: August 9, 2019
Background: Patentee brought action
against competitor, alleging infringement
of its patent claiming improved method for
administering pemetrexed disodium to patient in need of chemotherapeutic treatment. The United States District Court for
the Southern District of Indiana, Tanya
Walton Pratt, J., 2017 WL 6387316, denied
competitor’s motion for summary judgment of noninfringement, 2018 WL
3008570, found literal infringement, and
following bench trial, 323 F.Supp.3d 1042,
found that competitor’s submission of new

(1) competitor’s new drug application for
its pemetrexed product did not practice the step of administration of pemetrexed disodium, and thus could not
literally infringe patent;
(2)

patentee’s amendment, narrowing
scope of claims from antifolate to
pemetrexed disodium, was merely
tangential to pemetrexed ditromethamine, the accused compound, and
thus, prosecution history estoppel did
not bar patentee from asserting infringement under doctrine of equivalents;

(3) patent did not disclose methods of
treatment using pemetrexed ditromethamine, such that patentee could not
have dedicated such method to the
public, and thus, disclosure-dedication
rule did not bar patentee from asserting infringement under the doctrine of
equivalents; and
(4) District Court did not clearly err in
finding that competitor’s proposed
product would be administered in insubstantially different way from
claimed method in patent, such that
product was equivalent to and infringed on patent.
Affirmed in part and reversed in part.
1. Courts O96(7)
The Court of Appeals for the Federal
Circuit reviews a district court’s grant of
summary judgment according to the law of
the regional circuit.
2. Federal Courts O3604(4), 3675
In the Seventh Circuit, summary
judgment is reviewed de novo, construing

ELI LILLY AND CO. v. HOSPIRA, INC.
Cite as 933 F.3d 1320 (Fed. Cir. 2019)

all facts and drawing all inferences in favor
of the non-movant.
3. Federal Courts O3567, 3603(2)
On appeal from a bench trial, the
Court of Appeals reviews a district court’s
conclusions of law de novo and its findings
of fact for clear error.
4. Federal Courts O3603(7)
A factual finding is clearly erroneous
if, despite some supporting evidence, the
Court of Appeals is left with the definite
and firm conviction that a mistake has
been made.
5. Patents O1848, 1970(13)
Patent claim construction is ultimately
an issue of law, which the Court of Appeals
reviews de novo.
6. Patents O1970(13)
The Court of Appeals reviews de novo
the district court’s findings of fact on evidence intrinsic to the patent, the patent
claims and specification, along with the
patent’s prosecution history, and reviews
for clear error extrinsic findings of fact
related to claim construction.
7. Patents O1848, 1970(15)
While patent infringement is a question of fact, the Court of Appeals reviews
de novo the district court’s grant of summary judgment of noninfringement.
8. Patents O1555, 1574(1)
To prove infringement, a patentee
must supply sufficient evidence to prove
that the accused product or process contains, either literally or under the doctrine
of equivalents, every limitation of the properly construed claim.
9. Patents O1824
A patentee has the burden of proving
infringement by a preponderance of the
evidence.
10. Patents O1668
Competitor’s new drug application for
its pemetrexed product did not practice

1321

the step of administration of pemetrexed
disodium, and thus could not literally infringe patent claiming improved method
for administering pemetrexed disodium to
patient in need of chemotherapeutic treatment; competitor’s product was dissolved
in saline before administration, pemetrexed disodium no longer existed once
dissolved in solution, and different salt of
pemetrexed dissolved in saline was not
pemetrexed disodium.
11. Patents O1574(1)
A patentee is entitled in all cases to
invoke to some extent the doctrine of
equivalents without a judicial exploration
of the equities of a case beforehand.
12. Patents O1555
Patent infringement is principally determined by examining whether the accused subject matter falls within the scope
of the claims.
13. Patents O1338(2)
Prosecution history estoppel arises
when a patent applicant narrows the scope
of his claims during prosecution for a reason substantially relating to patentability.
14. Patents O1819
A patent applicant’s narrowing the
scope of his claims during prosecution is
presumed to be a surrender of all equivalents within the territory between the original claim and the amended claim, but the
presumption is overcome if the patentee
can show the applicability of one of the few
exceptions to prosecution history estoppel
identified by the Supreme Court.
15. Patents O1848, 1970(14)
Whether prosecution history estoppel
applies to bar a doctrine of equivalents
claim is a question of law, reviewed de
novo.

1322

933 FEDERAL REPORTER, 3d SERIES

16. Patents O1819, 1848
Whether the tangential exception to
prosecution history estoppel applies is a
question of law, and a patentee seeking to
use the exception must base his arguments
solely upon the public record of the patent’s prosecution.
17. Patents O1574(5), 1668
Patentee’s amendment, narrowing
scope of claims from antifolate to pemetrexed disodium, was merely tangential to
pemetrexed ditromethamine, the accused
compound, and thus prosecution history
estoppel did not bar patentee from asserting infringement under doctrine of equivalents of patent claiming improved method
for administering pemetrexed disodium to
patient in need of chemotherapeutic treatment; reason for amendment was to narrow claim to avoid Arsenyan, not to cede
other functionally identical pemetrexed
salts, and relinquishment of other pemetrexed salts would render the patent
worthless.

disclosed in the patent and the prosecution
history.
21. Patents O839, 1668
Patent claiming improved method for
administering pemetrexed disodium to patient in need of chemotherapeutic treatment did not disclose methods of treatment using pemetrexed ditromethamine,
such that patentee could not have dedicated such method to the public, and thus
disclosure-dedication rule did not bar patentee from asserting infringement under
the doctrine of equivalents; other patent,
which was referenced in patent, contained
only generic reference to pemetrexed ditromethamine.
22. Patents O839
Under the disclosure-dedication rule,
subject matter disclosed by a patentee, but
not claimed, is considered dedicated to the
public.
23. Patents O839

18. Patents O1819
In determining whether the tangential
exception to prosecution history estoppel
applies, amendments are not construed to
cede only that which is necessary to overcome the prior art, nor will the court speculate whether an amendment was necessary.

The reason for the disclosure-dedication doctrine is that members of the public
reading a disclosure of particular subject
matter are entitled, absent a claim to it, to
assume that it is not patented and therefore dedicated to the public, unless, for
example, claimed in a continuation or other
application based on the disclosure.

19. Patents O1819
The reason for an amendment, where
the tangential exception to prosecution history estoppel is invoked, cannot be determined without reference to the context in
which it was made, including the prior art
that might have given rise to the amendment in the first place.

24. Patents O839

20. Patents O1819
In determining whether the tangential
exception to prosecution history estoppel
applies, whether an amendment was merely tangential to an equivalent must be
decided in the context of the invention

Under the disclosure-dedication rule,
subject matter is considered disclosed
when a skilled artisan can understand the
unclaimed disclosed teaching upon reading
the written description, but not any generic reference necessarily dedicates all members of that particular genus.
25. Patents O1565, 1574(1)
A component in an accused product or
process may be equivalent to a claim element if the two are insubstantially different with respect to the role played by the

ELI LILLY AND CO. v. HOSPIRA, INC.
Cite as 933 F.3d 1320 (Fed. Cir. 2019)

element in the context of the specific patent claim; relevant differences can include
the function each serves, the way in which
each works, and the result each obtains,
and especially in biochemical cases, structural or pharmacological characteristics.
26. Patents O1848, 1970(15)
The determination of equivalency vel
non is a question of fact, which the Court
of Appeals reviews for clear error in an
appeal from a bench trial.
27. Patents O1668
District Court did not clearly err in
finding that competitor’s proposed pemetrexed ditromethamine product would be
administered in insubstantially different
way from patent’s claimed method for administering pemetrexed disodium to patient in need of chemotherapeutic treatment, such that product was equivalent to
and infringed on patent; proposed product
furnished the same amount of pemetrexed
to active sites in the body in exactly the
same way, by diluting a pemetrexed salt in
an aqueous solution for intravenous administration.
Patents O2091
7,772,209. Infringed.
Patents O2091
4,997,838, 5,344,932, 7,053,065. Cited.
Patents O2091
5,431,925. Cited as Prior Art.
Appeals from the United States
Court for the Southern District of
in Nos. 1:16-cv-03460-TWP-MPB,
00308-TWP-MPB, Judge Tanya
Pratt.

District
Indiana
1:16-cvWalton

Adam Lawrence Perlman, Williams &
Connolly LLP, Washington, DC, argued
for plaintiff-appellee in 2018-2126 and
2018-2128. Also represented by Galina I.
Fomenkova, Dov Philip Grossman, David
M. Krinsky, Andrew P. Lemens, Charles

1323

McCloud; James Patrick Leeds, Eli Lilly
and Company, Indianapolis, IN.
Bradford Peter Lyerla, Jenner & Block
LLP, Chicago, IL, argued for defendantappellant in 2018-2126. Also represented
by Yusuf Esat, Sara Tonnies Horton;
Adam G. Unikowsky, Washington, DC.
John C. O’Quinn, Kirkland & Ellis LLP,
Washington, DC, argued for defendantsappellants in 2018-2128. Also represented
by William H. Burgess, Calvin Alexander
Shank; Jeffery B. Arnold, Holland &
Knight LLP, Atlanta, GA; Merri C. Moken, Charles A. Weiss, Eric H. Yecies,
New York, NY.
Brian Timothy Burgess, Goodwin Procter LLP, Washington, DC, for amicus curiae Actavis LLC in 2018-2128. Also represented by Edwina Clarke, Emily L.
Rapalino, Daryl L. Wiesen, Boston, MA;
Linnea P. Cipriano, New York, NY.
Before Lourie, Moore, and Taranto,
Circuit Judges.
Lourie, Circuit Judge.
Hospira Inc. (‘‘Hospira’’), Dr. Reddy’s
Laboratories Ltd., and Dr. Reddy’s Laboratories Inc. (collectively, ‘‘DRL’’) appeal
from two judgments of the United States
District Court for the Southern District of
Indiana in two infringement suits brought
by Eli Lilly & Company (‘‘Lilly’’) under
the Hatch-Waxman Act, 21 U.S.C. § 355.
The district court held in each case that
the defendant’s submission of a New Drug
Application pursuant to 21 U.S.C.
§ 355(b)(2) infringed U.S. Patent 7,772,209
(the ‘‘’209 patent’’) under 35 U.S.C.
§ 271(e)(2). See Eli Lilly & Co. v. Hospira,
Inc., No. 1:16-cv-03460-TWP-MPB, 2018
WL 3008570 (S.D. Ind. June 15, 2018)
(‘‘Hospira Decision’’); Eli Lilly & Co. v.
Dr. Reddy’s Labs., Ltd., 323 F. Supp. 3d
1042 (S.D. Ind. 2018) (‘‘DRL Decision’’);
see also Eli Lilly & Co. v. Dr. Reddy’s

1324

933 FEDERAL REPORTER, 3d SERIES

Labs., Ltd., No. 1:16-cv-00308-TWP-MPB,
2017 WL 6387316 (S.D. Ind. Dec. 14, 2017)
(‘‘DRL Summary Judgment Decision’’).
Accordingly, the district court entered orders under 35 U.S.C. § 271(e)(4)(A) prohibiting FDA approval of the products at
issue until the expiration of the ’209 patent. Eli Lilly & Co. v. Hospira, Inc., No.
1:16-cv-03460-TWP-MPB (S.D. Ind. June
27, 2018), ECF No. 94; Eli Lilly & Co. v.
Dr. Reddy’s Labs., Ltd., No. 1:16-cv-00308TWP-MPB, 2018 WL 3616715 (S.D. Ind.
July 27, 2018). We decide these appeals
together in this combined opinion.1
We reverse the district court’s finding of
literal infringement in the Hospira Decision as clearly erroneous in light of the
court’s claim construction of ‘‘administration of pemetrexed disodium.’’ Because the
district court did not err in its application
of the doctrine of equivalents in either
decision, we affirm both judgments of infringement. Thus, the Hospira Decision is
affirmed-in-part and reversed-in-part, and
the DRL Decision is affirmed.
BACKGROUND
Lilly markets the compound pemetrexed
in the form of a disodium salt as Alimtab,
which is indicated, both alone and in combination with other active agents, for treating certain types of non-small cell lung
cancer and mesothelioma. Pemetrexed is
an antifolate, a class of molecules which, at
the time of the invention in 2001, was ‘‘one
of the most thoroughly studied classes of
antineoplastic agents.’’ ’209 patent col. 1 ll.
19–20. Antifolates are structurally similar
to folic acid and work by competitively
binding to certain enzymes that use folic
acid metabolites as cofactors in several
steps of de novo nucleotide synthesis. Id.
col. 1 ll. 40–41. Unlike folic acid, antifolates
do not enable these synthetic steps, but
1.

We refer to the joint appendices in these
appeals by reference to each appellant. Lilly’s
brief in the Hospira appeal is referred to as

instead inhibit them. Pemetrexed inhibits
several of these enzymes, including thymidylate synthase, which methylates deoxyuridine in the final step of deoxythymidine
synthesis. Id. col. 1 ll. 59–61. By inhibiting
the creation of these nucleotides, antifolates slow down DNA and RNA synthesis,
and with it, cell growth and division. Cancer cells tend to grow rapidly, so antifolate
therapy affects them disproportionately,
but healthy cells can also be damaged.
Pemetrexed had been known for at least
a decade in 2001. Lilly’s U.S. Patent
5,344,932 (‘‘Taylor’’) disclosed that certain
glutamic acid derivatives with pyrrolo[2,3d]pyrimidine heterocyclic ring structures, exemplified by pemetrexed, are
‘‘particularly active TTT inhibitors of thymidylate synth[ase],’’ Taylor col. 1 ll. 59–60;
see also id. col. 19 l. 37–col. 20 l. 25 (disclosing data indicating that pemetrexed inhibits thymidylate synthase activity in vitro in human cell lines and in vivo in mice).
The Taylor patent also disclosed that its
compounds could be employed as ‘‘pharmaceutically acceptable salt[s],’’ id. col. 2 l.
35, and that the disodium salt form was
particularly advantageous, id. col. 2 ll. 47–
48. U.S. Patent 4,997,838 (‘‘Akimoto’’), to
which Lilly took a license, disclosed a
large genus of compounds containing pyrrolo[2,3-d]pyrimidine heterocyclic ring
structures and a glutamic acid functional
group, and that encompassed pemetrexed.
The Akimoto patent discloses nearly fifty
exemplary compounds, col. 14 l. 61–col. 16
l. 48, none of which is pemetrexed. Akimoto further discloses that its compounds
may be prepared as salts of ‘‘pharmaceutically acceptable bases,’’ such as ‘‘alkali
metals, alkali earth metals, non-toxic metals, ammonium, and substituted ammonium.’’ Id. col. 14 ll. 44–47.
‘‘Lilly Br. I’’ and its brief in the DRL appeal
as ‘‘Lilly Br. II.’’

ELI LILLY AND CO. v. HOSPIRA, INC.
Cite as 933 F.3d 1320 (Fed. Cir. 2019)

By 2001, Lilly had also published the
results of several clinical trials investigating the use of pemetrexed disodium as a
treatment for different types of cancer.
See, e.g., W. John et al., ‘‘Activity of Multitargeted Antifolate (Pemetrexed Disodium,
LY231514) in Patients with Advanced Colorectal Carcinoma: Results from a Phase
II Study,’’ Cancer, 88(8):1807–13 (2000). In
the course of conducting these studies, Lilly discovered that pemetrexed disodium
caused severe hematologic and immunologic side effects, resulting in infections, nausea, rashes, and even some deaths. See id.;
see also Neptune Generics, LLC v. Eli
Lilly & Co., 921 F.3d 1372, 1377–78 (Fed.
Cir. 2019) (discussing Lilly’s response to
adverse clinical data), and Neptune Generics, LLC v. Eli Lilly & Co., No. IPR201600240, 2017 WL 4466557, at *28–30
(P.T.A.B. Oct. 5, 2017) (same). As the ’209
patent teaches, such side effects are not
uncommon among antifolates. See ’209 patent col. 1 ll. 11–14. Some researchers hypothesized that folic acid deficiency caused
these side effects and suggested supplementing pemetrexed disodium treatment
with folic acid. DRL J.A. 7870 (citing J.F.
Worzalla et al., ‘‘Role of Folic Acid in
Modulating the Toxicity and Efficacy of
the Multitargeted Antifolate, LY231514,’’
Anticancer Research, 18:3235–40 (1998)).
The invention of the ’209 patent is an
improved method of treatment with antifolates, particularly pemetrexed disodium,
through supplementation with a methylmalonic acid lowering agent and folic acid.
Doing so, according to the patent, lessens
antifolate toxicity without sacrificing efficacy. See ’209 patent col. 10 ll. 17–53 (reporting that pre-supplementation regimen of
vitamin B12 and folic acid in clinical studies substantially reduced pemetrexed-in2.

The district court treated claim 12 as representative, DRL Summary Judgment Decision,
2017 WL 6387316, at *1–2; Hospira Decision,
2018 WL 3008570, at *2, and no party has

1325

duced toxicity and deaths while delivering
a superior chemotherapeutic response
rate). The ’209 patent lists preferred antifolates, including some then-existing antifolate therapies, as well as ‘‘derivatives
described in’’ several patents including the
Akimoto patent, and ‘‘most preferred,
Pemetrexed Disodium.’’ Id. col. 4 ll. 28–43.
Each of the claims of the ’209 patent requires administration of pemetrexed disodium following administration of folic acid
and a methylmalonic acid lowering agent,
specified in some claims, as well as the
Alimtab label, as vitamin B12. Claim 12 is
representative 2:
12. An improved method for administering pemetrexed disodium to a patient in
need of chemotherapeutic treatment,
wherein the improvement comprises:
a) administration of between about
350 mg and about 1000 mg of folic acid
prior to the first administration of
pemetrexed disodium;
b) administration of about 500 mg to
about 1500 mg of vitamin B12, prior to
the first administration of pemetrexed
disodium; and
c) administration of pemetrexed disodium.
In a parent application, Application
10/297,821 (the ‘‘’821 application’’), Lilly
originally sought broad claims to methods
of administering an antifolate in conjunction with a methylmalonic acid lowering
agent, with or without folic acid. The original independent claims 2 and 5 read:
2. (Original) A method of reducing the
toxicity associated with the administration of an antifolate to a mammal comprising
administering to said mammal an effective amount of said antifolate in
disputed that determination on appeal. See,
e.g., DRL Opening Br. 8–9; Hospira Opening
Br. 23.

1326

933 FEDERAL REPORTER, 3d SERIES

combination with a methylmalonic
acid lowering agent.
5. (Original) A method of reducing the
toxicity associated with the administration of an antifolate to a mammal comprising
administering to said mammal an effective amount of said antifolate in
combination with a methylmalonic
acid lowering agent and FBP binding
agent.
DRL J.A. 7860. A dependent claim further
limited the antifolate to pemetrexed disodium. Id. at 7861.
Claim 2 was rejected as anticipated by
F.G. Arsenyan et al., ‘‘Influence of Methylcobalamin on the Antineoplastic Activity of Methotrexate,’’ Onkol. Nauchn.,
12(10):1299-1303 (1978), which disclosed
experiments treating mice with various
tumors with a combination of methotrexate, an antifolate, and methylcobalamin,
a vitamin B12 derivative. The rest of the
pending claims, including Claim 5, were
rejected as obvious over a collection of
references: U.S. Patent 5,431,925 (‘‘Ohmori’’)—which taught treatment of chemotherapeutically-induced immunosuppression
with a combination of vitamins that could
include folic acid and vitamin B12—Worzalla, John, and Arsenyan. ’821 application, Sept. 27, 2004, Office Action; DRL
J.A. 7868–72.
In response, Lilly amended both claims
to narrow ‘‘antifolate’’ to ‘‘pemetrexed disodium’’ and cancelled its dependent claim
limited to pemetrexed disodium. ’821 ap3.

This is the fourth appeal we have decided
concerning Alimtab and the third specifically
concerning the ’209 patent. See Neptune Generics, 921 F.3d 1372; Eli Lilly & Co. v. Teva
Parenteral Meds., Inc., 845 F.3d 1357 (Fed.
Cir. 2017); Eli Lilly & Co. v. Teva Parenteral
Meds., Inc., 689 F.3d 1368 (Fed. Cir. 2012).

4.

Lilly also sued Actavis LLC (‘‘Actavis’’) for
infringement of the ’209 patent, Eli Lilly &
Co. v. Actavis LLC, No. 1:17-cv-00982-TWP-

plication, Jan. 25, 2005, Response to Office
Action; DRL J.A. 7877–84. In its remarks,
Lilly asserted that the amendment to
claim 2 overcame the anticipation rejection
because Arsenyan does not disclose pemetrexed disodium. Id. To overcome the obviousness rejection of claim 5 and its dependents, Lilly generally argued that,
while John discloses hematologic and immunologic toxicities from administration of
pemetrexed disodium, it never suggests vitamin supplementation, and none of the
other references ‘‘teach the use of [vitamin
B12] to reduce toxicities associated with
an antifolate.’’ Id. The examiner then withdrew the anticipation rejection and later
withdrew the obviousness rejection.
The ’821 application issued as U.S. Patent
7,053,065, and the ’209 patent later issued
from a continuation application.
These appeals were taken from cases
which are among the latest in a series of
patent disputes about Alimtab that reaches back more than a decade.3 In this most
recent chapter, DRL, Hospira, and Actavis 4 submitted New Drug Applications under § 505(b)(2) of the Federal Food, Drug,
and Cosmetic Act, 21 U.S.C. § 355(b)(2),
relying on Lilly’s clinical data for pemetrexed disodium. But each applicant seeks
to market different pemetrexed salts—in
DRL’s and Hospira’s applications, pemetrexed ditromethamine. Both DRL and
Hospira represented to the FDA that their
choice of the tromethamine cation was immaterial because pemetrexed dissociates
from its counterion in solution, DRL J.A.
MPB (S.D. Ind. Mar. 30, 2017), ECF No. 1,
but the parties stipulated to be bound by the
district court’s decision in the DRL case that
neither prosecution history estoppel nor the
disclosure-dedication rule bars Lilly’s assertion of infringement through the doctrine of
equivalents. Actavis Br. 2. Actavis filed a brief
in the DRL appeal as amicus curiae requesting reversal of that portion of the district
court’s decision.

ELI LILLY AND CO. v. HOSPIRA, INC.
Cite as 933 F.3d 1320 (Fed. Cir. 2019)

8555–57; Hospira J.A. 124, and tromethamine was known to be safe for pharmaceutical use, DRL J.A. 8555, 8557.
Lilly then asserted the ’209 patent
against each of these NDA applicants in
the United States District Court for the
Southern District of Indiana. In the DRL
case, the district court construed the
phrase ‘‘administration of pemetrexed disodium’’ to mean ‘‘liquid administration of
pemetrexed disodium,’’ which ‘‘is accomplished by dissolving the solid compound
pemetrexed disodium into solution.’’ DRL
Summary Judgment Decision, 2017 WL
6387316, at *4. The district court denied
DRL’s motion for summary judgment of
noninfringement, holding that prosecution
history estoppel does not bar Lilly from
asserting that DRL’s proposed pemetrexed ditromethamine product would infringe through the doctrine of equivalents
because the reason for Lilly’s amendment
was to distinguish other antifolates and
was therefore only tangential to pemetrexed ditromethamine. Id. at *6–7. The
district court also rejected DRL’s argument that Lilly dedicated pemetrexed ditromethamine to the public under the
disclosure-dedication rule through its reference to Akimoto’s antifolate compounds
because Akimoto is not incorporated by
reference into the ’209 patent and in any
event discloses pemetrexed ditromethamine only within a genus of thousands of
compounds, which the district court held
does not constitute the requisite disclosure of an identifiable alternative under
this court’s precedent. Id. at *7–8; see,
e.g., SanDisk Corp. v. Kingston Tech.
Co., 695 F.3d 1348, 1363 (Fed. Cir. 2012).
Following a bench trial, the district
court’s opinion largely followed its rationale in the DRL Summary Judgment Decision with respect to the applicability of
prosecution history estoppel and the disclosure-dedication rule. DRL Decision, 323
F. Supp. 3d at 1046–48. In addition, the

1327

court found that DRL’s proposed product
would be administered in a manner that
would meet the ‘‘administration of pemetrexed disodium’’ step of the asserted
claims under the doctrine of equivalents,
id. at 1049, regardless of the ‘‘differences
in chemical properties between pemetrexed disodium and pemetrexed ditromethamine,’’ id. at 1050.
In the Hospira case, the parties similarly disputed the doctrine of equivalents,
but Lilly also asserted literal infringement
because Hospira’s proposed product label
allows reconstitution of its pemetrexed ditromethamine salt in saline. Hospira Decision, 2018 WL 3008570, at *2–3; Hospira
J.A. 229. After the district court issued
the DRL Summary Judgment Decision,
Hospira conceded, contingent upon its
right to appeal, that its product would
infringe under the claim construction of
‘‘administration of pemetrexed disodium’’
set forth in that opinion and that its doctrine of equivalents arguments were likewise foreclosed. Hospira Br. 18. The district court, ‘‘rel[ying] heavily’’ on the DRL
Summary Judgment Decision, granted
Lilly’s motion for summary judgment of
infringement, both literally and under the
doctrine of equivalents. Hospira Decision,
2018 WL 3008570, at *1 n.2, *6.
These appeals followed. We have jurisdiction under 28 U.S.C. § 1295(a)(1).
DISCUSSION
[1–4] We review a district court’s
grant of summary judgment according to
the law of the regional circuit. Kaneka
Corp. v. Xiamen Kingdomway Grp. Co.,
790 F.3d 1298, 1303 (Fed. Cir. 2015) (citing
Halo Elecs., Inc. v. Pulse Elecs., Inc., 769
F.3d 1371, 1377 (Fed. Cir. 2014)). In the
Seventh Circuit, summary judgment is reviewed de novo, construing all facts and
drawing all inferences in favor of the nonmovant. Wis. Alumni Research Found. v.

1328

933 FEDERAL REPORTER, 3d SERIES

Apple Inc., 905 F.3d 1341, 1352 (Fed. Cir.
2018) (citing Austin v. Walgreen Co., 885
F.3d 1085, 1087 (7th Cir. 2018)). On appeal
from a bench trial, we review a district
court’s conclusions of law de novo and its
findings of fact for clear error. Braintree
Labs., Inc. v. Novel Labs., Inc., 749 F.3d
1349, 1358 (Fed. Cir. 2014) (citing Brown
& Williamson Tobacco Corp. v. Philip
Morris Inc., 229 F.3d 1120, 1123 (Fed. Cir.
2000)). A factual finding is clearly erroneous if, despite some supporting evidence,
we are left with the definite and firm
conviction that a mistake has been made.
United States v. U.S. Gypsum Co., 333
U.S. 364, 395, 68 S.Ct. 525, 92 L.Ed. 746
(1948).
[5–9] Claim construction is ultimately
an issue of law, which we review de novo.
Shire Dev., LLC v. Watson Pharm., Inc.,
787 F.3d 1359, 1364 (Fed. Cir. 2015). We
review de novo the district court’s findings
of fact on evidence ‘‘intrinsic to the patent
(the patent claims and specification[ ],
along with the patent’s prosecution history),’’ and review for clear error extrinsic
findings of fact. Teva Pharm. USA, Inc. v.
Sandoz, Inc., 574 U.S. 318, 135 S. Ct. 831,
841, 190 L.Ed.2d 719 (2015). While infringement is a question of fact, Lucent
Techs., Inc. v. Gateway, Inc., 580 F.3d
1301, 1309 (Fed. Cir. 2009), we review de
novo the district court’s grant of summary
judgment of noninfringement, Unwired
Planet, LLC v. Apple Inc., 829 F.3d 1353,
1356 (Fed. Cir. 2016). To prove infringement, a patentee ‘‘must supply sufficient
evidence to prove that the accused product
or process contains, either literally or under the doctrine of equivalents, every limitation of the properly construed claim.’’
Seal-Flex, Inc. v. Athletic Track & Court
Const., 172 F.3d 836, 842 (Fed. Cir. 1999).
The patentee has the burden of proving
infringement by a preponderance of the
evidence. SmithKline Diagnostics, Inc. v.
Helena Labs. Corp., 859 F.2d 878, 889
(Fed. Cir. 1988).

Hospira requests reversal of the district
court’s finding that its submission of a
§ 505(b)(2) NDA for its pemetrexed product literally infringed the claims of the ’209
patent. DRL and Hospira both argue, as
does the amicus curiae Actavis, that the
district court erred as a matter of law by
refusing to apply prosecution history estoppel to bar Lilly’s doctrine of equivalents
claim, and DRL further contends that the
disclosure-dedication rule precludes Lilly’s
equivalents claim. Finally, DRL disputes
the district court’s finding that administration of pemetrexed ditromethamine is
equivalent to the claim element ‘‘administration of pemetrexed disodium.’’ We address each argument in turn.
A.

Literal Infringement

[10] Hospira argues that it cannot literally infringe the claims of the ’209 patent
because intravenous administration of
pemetrexed ditromethamine dissolved in
saline—a solution which contains pemetrexed and chloride anions alongside sodium and tromethamine cations—is not ‘‘administration of pemetrexed disodium.’’
Hospira also notes that such a solution
will, in any case, contain far more than two
sodium cations per pemetrexed anion. Finally, Hospira appears to make a perfunctory argument that, in the alternative, we
should reverse the district court’s construction and hold that the term encompasses any route of administering pemetrexed disodium, not just liquid, as the
district court’s construction requires.
Lilly counters that Hospira’s view improperly imposes a ‘‘source limitation,’’ requiring that the pemetrexed disodium salt
exist in solid form before administration,
even though Hospira’s proposed product
label, like that of Alimtab, calls for administration of a solution containing pemetrexed anions and sodium cations. Lilly
also contends that Hospira’s claim con-

ELI LILLY AND CO. v. HOSPIRA, INC.
Cite as 933 F.3d 1320 (Fed. Cir. 2019)

struction arguments are irrelevant because
Hospira’s proposed product will be administered intravenously anyway.
We agree with Hospira. It was clearly
erroneous for the district court to hold
that the ‘‘administration of pemetrexed disodium’’ step was met because Hospira’s
pemetrexed ditromethamine product will
be dissolved in saline before administration. A solution of pemetrexed and chloride
anions and tromethamine and sodium cations cannot be deemed pemetrexed disodium simply because some assortment of the
ions in the solution consists of pemetrexed
and two sodium cations. As Lilly acknowledges throughout its brief, pemetrexed disodium is a salt. See, e.g., Lilly Br. I 12
(pemetrexed toxicity is caused ‘‘by pemetrexed itself once dissociated in solution,’’
not pemetrexed disodium); see also Hospira J.A. 1596 (October 2017 Alimtab Label
referring to the drug substance as the
‘‘disodium salt’’ of pemetrexed). Once diluted, the salt’s crystalline structure dissolves, and the individual ions dissociate.
See Hospira J.A. 2820 (declaration of Lilly’s expert). In other words, pemetrexed
disodium no longer exists once dissolved in
solution, and, as a corollary, a different
salt of pemetrexed dissolved in saline is
not pemetrexed disodium.
We conclude that to literally practice the
‘‘administration of pemetrexed disodium’’
step under the district court’s claim construction, the pemetrexed disodium salt
must be itself administered. See DRL
Summary Judgment Decision, 2017 WL
6387316, at *4 (‘‘ ‘[A]dministration of pemetrexed disodium’ TTT refer[s] to a liquid
administration of pemetrexed disodium.
TTT, accomplished by dissolving the solid
compound pemetrexed disodium into solution TTTT’’); see also Tex. Instruments Inc.
v. Cypress Semiconductor Corp., 90 F.3d
1558, 1563 (Fed. Cir. 1996) (‘‘To literally
infringe, the accused TTT process must
contain every limitation of the asserted

1329

claim.’’ (citing Laitram Corp. v. Rexnord,
Inc., 939 F.2d 1533, 1535 (Fed. Cir. 1991))).
There is no dispute that Hospira has only
sought approval to market pemetrexed ditromethamine, Lilly Br. I 4, and that neither its proposed product nor methods of
administering it will constitute administering the pemetrexed disodium salt. Accordingly, Hospira will not practice the step of
‘‘administration of pemetrexed disodium,’’
and the district court’s finding of literal
infringement must be reversed.
B.

Doctrine of Equivalents

[11] Few propositions of patent law
have been so consistently sustained by the
Supreme Court as the doctrine of equivalents. See Festo Corp. v. Shoketsu Kinzoku
Kogyo Kabushiki Co., 535 U.S. 722, 733,
122 S.Ct. 1831, 152 L.Ed.2d 944 (2002)
(‘‘Festo VIII’’) (‘‘[E]quivalents remain a
firmly entrenched part of the settled rights
protected by the patent.’’); Warner-Jenkinson Co. v. Hilton Davis Chem. Co., 520
U.S. 17, 40, 117 S.Ct. 1040, 137 L.Ed.2d
146 (1997) (‘‘[W]e adhere to the doctrine of
equivalents.’’); Graver Tank & Mfg. Co. v.
Linde Air Prods. Co., 339 U.S. 605, 608, 70
S.Ct. 854, 94 L.Ed. 1097 (1950) (‘‘Originating almost a century ago in the case of
Winans v. Denmead, [56 U.S. 330, 15 How.
330, 14 L.Ed. 717 (1853)] TTT [the doctrine
of equivalents] has been consistently applied by this Court and the lower federal
courts, and continues today ready and
available for utilization when the proper
circumstances for its application arise.’’). It
is settled that a patentee is entitled ‘‘in all
cases to invoke to some extent the doctrine
of equivalents,’’ Seymour v. Osborne, 78
U.S. 516, 555, 11 Wall. 516, 20 L.Ed. 33
(1870), without a ‘‘judicial exploration of
the equities of a case’’ beforehand. See
Warner-Jenkinson, 520 U.S. at 34, 117
S.Ct. 1040.

1330

933 FEDERAL REPORTER, 3d SERIES

[12] Yet the Supreme Court has also
acknowledged that the doctrine of equivalents, ‘‘when applied broadly, conflicts with
the definitional and public-notice functions
of the statutory claiming requirement,’’
Warner-Jenkinson, 520 U.S. at 29, 117
S.Ct. 1040, and that, without the proper
balance between these two imperatives,
the doctrine may ‘‘take[ ] on a life of its
own, unbounded by the patent claims.’’ See
id. at 28–29, 117 S.Ct. 1040. We have emphasized, moreover, that the doctrine of
equivalents is ‘‘the exception, however, not
the rule,’’ and not merely ‘‘the second
prong of every infringement charge, regularly available to extend protection beyond
the scope of the claims.’’ London v. Carson
Pirie Scott & Co., 946 F.2d 1534, 1538
(Fed. Cir. 1991). Patent infringement is
principally determined by examining
whether the accused subject matter falls
within the scope of the claims.
To that end, courts have placed important limitations on a patentee’s ability to
assert infringement under the doctrine of
equivalents. See, e.g., Festo VIII, 535 U.S.
at 737–41, 122 S.Ct. 1831 (prosecution history estoppel); Warner-Jenkinson, 520
U.S. at 39 n.8, 117 S.Ct. 1040 (‘‘[A] theory
of equivalence [cannot] entirely vitiate a
particular claim element TTTT’’); Graver
Tank, 339 U.S. at 608, 70 S.Ct. 854 (accused equivalent cannot differ substantially from the claimed invention); Johnson &
Johnston Assocs. Inc. v. R.E. Serv. Co.,
285 F.3d 1046, 1054 (Fed. Cir. 2002) (en
banc) (subject matter disclosed but not
claimed is dedicated to the public) (citing
Maxwell v. J. Baker, Inc., 86 F.3d 1098
(Fed. Cir. 1996)); Wilson Sporting Goods
Co. v. David Geoffrey & Assocs., 904 F.2d
677, 683 (Fed. Cir. 1990) (‘‘[T]he asserted
scope of equivalency [cannot] encompass
the prior art TTTT’’ (Rich, J.) (citations
omitted)). These appeals implicate several
of these limitations.

1. Prosecution History Estoppel
[13–15] The main dispute in these appeals is whether Lilly has rebutted the
presumption of prosecution history estoppel that attached to its amendment in
the ’821 application. Prosecution history
estoppel arises when a patent applicant
narrows the scope of his claims during
prosecution for a reason ‘‘substantial[ly]
relating to patentability.’’ See generally
Festo Corp. v. Shoketsu Kinzoku Kogyo
Kabushiki Co., 344 F.3d 1359, 1366–67
(Fed. Cir. 2003) (en banc) (‘‘Festo X’’).
Such a narrowing amendment is presumed
to be a surrender of all equivalents within
‘‘the territory between the original claim
and the amended claim,’’ but the presumption is overcome if the patentee can show
the applicability of one of the few exceptions identified by the Supreme Court.
Festo VIII, 535 U.S. at 740–41, 122 S.Ct.
1831 (citing Exhibit Supply Co. v. Ace
Patents Corp., 315 U.S. 126, 136–37, 62
S.Ct. 513, 86 L.Ed. 736 (1942)). Whether
prosecution history estoppel applies to bar
a doctrine of equivalents claim is a question of law, reviewed de novo. See Regents
of Univ. of Cal. v. Dakocytomation Cal.,
Inc., 517 F.3d 1364, 1371 (Fed. Cir. 2008)
(citing Pharmacia & Upjohn Co. v. Mylan
Pharm., Inc., 170 F.3d 1373, 1376 (Fed.
Cir. 1999)).
[16] Lilly does not dispute that the
amendment in question was both narrowing and made for a substantial reason relating to patentability. Lilly Br. II 21.
Furthermore, Lilly relies on only one exception to giving effect to the presumption
as to the scope of surrender: that the rationale of its amendment ‘‘[bore] no more
than a tangential relation to the equivalent
in question.’’ Festo VIII, 535 U.S. at 740,
122 S.Ct. 1831. As a result, the parties’
dispute about whether prosecution history
estoppel applies is confined to whether
Lilly’s amendment narrowing ‘‘an antifolate’’ to ‘‘pemetrexed disodium’’ was only

ELI LILLY AND CO. v. HOSPIRA, INC.
Cite as 933 F.3d 1320 (Fed. Cir. 2019)

tangential to pemetrexed ditromethamine,
which is the accused compound. Whether
the tangential exception applies is a question of law, Integrated Tech. Corp. v. Rudolph Techs., Inc., 734 F.3d 1352, 1356
(Fed. Cir. 2013), and a patentee seeking to
use the exception ‘‘must base his arguments solely upon the public record of the
patent’s prosecution.’’ Festo X, 344 F.3d at
1369–70 (citation omitted).
The Appellants argue that Lilly failed to
explain why it did not pursue a narrower
amendment literally encompassing pemetrexed ditromethamine, and they emphasize our statement that the tangential exception is ‘‘very narrow.’’ Integrated, 734
F.3d at 1358 (quoting Cross Med. Prods.,
Inc. v. Medtronic Sofamor Danek, Inc.,
480 F.3d 1335, 1342 (Fed. Cir. 2007)). The
Appellants further point out that Lilly cannot be said to have ‘‘lacked the words to
describe’’ pemetrexed ditromethamine, see
Festo VIII, 535 U.S. at 734, 122 S.Ct. 1831,
because Lilly’s previous patents, as well as
the European companion to the ’209 patent, claimed pemetrexed salts generally
and pemetrexed disodium in a dependent
claim. They also assert that the district
court erred by focusing on whether Lilly
actually needed to relinquish pemetrexed
ditromethamine to overcome the Arsenyan
anticipation rejection because ‘‘the tangential exception is not a patentee’s-buyer’sremorse exception.’’ DRL Br. 39.
In response, Lilly argues that the district court properly held that the reason
for its amendment was to distinguish pemetrexed from antifolates generally and that
the different salt type is a merely tangential change with no consequence for pemetrexed’s administration or mechanism of
action within the body. Lilly also contends
that it is not barred from asserting the
tangential exception simply because pemetrexed ditromethamine is within ‘‘the territory between the original claim and the
amended claim.’’ Festo VIII, 535 U.S. at

1331

740, 122 S.Ct. 1831. Finally, Lilly argues
that Appellants’ view that courts must
‘‘consider hypothetical alternative amendments’’ that would literally encompass the
alleged equivalent ‘‘would eviscerate the
tangentiality exception.’’ Lilly Br. II 44.
[17] We agree with Lilly. As a general
matter, we find Appellants’ view of prosecution history estoppel, and the tangential
exception in particular, too rigid. Tangential means ‘‘touching lightly or in the most
tenuous way.’’ Webster’s Third New International Dictionary (2002). The reason for
Lilly’s amendment, as the district court
concluded, was to narrow original claim 2
to avoid Arsenyan, which only discloses
treatments using methotrexate, a different
antifolate. See DRL J.A. 7879–80 (overcoming the Arsenyan anticipation rejection
by arguing that it ‘‘does not disclose pemetrexed disodium’’). To overcome a clear
anticipation, Lilly opted to narrow its original claim 2 and its dependents to more
accurately define what it actually invented,
an improved method of administering pemetrexed. In other words, the particular
type of salt to which pemetrexed is complexed relates only tenuously to the reason
for the narrowing amendment, which was
to avoid Arsenyan. We therefore hold that
Lilly’s amendment was merely tangential
to pemetrexed ditromethamine because
the prosecution history, in view of the ’209
patent itself, strongly indicates that the
reason for the amendment was not to cede
other, functionally identical, pemetrexed
salts.
The prosecution record confirms our understanding. Original claim 5, which, like
all the current claims of the ’209 patent,
required supplementation with both vitamin B12 and folic acid, was never rejected
as anticipated over Arsenyan. Instead, the
art cited against original claim 5 and its
dependent claims in the obviousness
ground of rejection was replete with information about pemetrexed disodium; John

1332

933 FEDERAL REPORTER, 3d SERIES

disclosed clinical trials using pemetrexed
disodium, reporting both its efficacy and
its toxic side effects, and in response, DRL
J.A. 7869–70, Worzalla suggested folic acid
supplementation to counteract these side
effects, DRL J.A. 7870–71. The prosecution record implies that Lilly’s amendment,
inartful though it might have been, was
prudential in nature and did not need or
intend to cede other pemetrexed salts.
Hospira argues that the amendment was
made to overcome the obviousness rejection over Ohmori and John and that Lilly
has provided no reason for the amendment
relative to that rejection. Like Lilly, we
find this argument makes little sense. John
discloses the results of a clinical trial of
pemetrexed disodium and explicitly suggests the toxicities caused by pemetrexed;
as we concluded above, narrowing ‘‘antifolate’’ to ‘‘pemetrexed disodium’’ could not
possibly distinguish the art cited in the
obviousness ground of rejection.
[18, 19] DRL also insists that we have
held that an applicant’s remorse at ceding
more claim scope than necessary is not a
reason for the tangential exception to apply. See, e.g., Lucent Techs., Inc. v. Gateway, Inc., 525 F.3d 1200, 1218 (Fed. Cir.
2008); Schwarz Pharma, Inc. v. Paddock
Labs., Inc., 504 F.3d 1371, 1377 (Fed. Cir.
2007). This is generally true, but DRL
overreads the holdings of these cases. After all, the tangential exception only exists
because applicants over-narrow their
claims during prosecution. Amendments
are not construed to cede only that which
is necessary to overcome the prior art, see
Schwarz, 504 F.3d at 1377, nor will the
court ‘‘speculat[e]’’ whether an amendment
was necessary, see Kinzenbaw v. Deere &
Co., 741 F.2d 383, 389 (Fed. Cir. 1984). But
the reason for an amendment, where the
tangential exception is invoked, cannot be
5.

The parties argue at length about which of
our cases are properly analogous to the facts

determined without reference to the context in which it was made, including the
prior art that might have given rise to the
amendment in the first place. See Festo X,
344 F.3d at 1370. Here, it is unlikely that a
competitor would have been ‘‘justified in
assuming that if he [made an equivalent
pemetrexed salt], he would not infringe
[the ’209 patent].’’ Kinzenbaw, 741 F.2d at
389; cf. Festo VIII, 535 U.S. at 738, 122
S.Ct. 1831 (‘‘There is no reason why a
narrowing amendment should be deemed
to relinquish equivalents TTT beyond a fair
interpretation of what was surrendered.’’).
Furthermore, Appellants’ suggestion
that Lilly must prove that it could not have
drafted a claim that literally encompassed
pemetrexed ditromethamine is unsupported by our precedent on prosecution history
estoppel, not to mention excessive. We do
not demand perfection from patent prosecutors, and neither does the Supreme
Court. See Festo VIII, 535 U.S. at 738, 122
S.Ct. 1831 (‘‘It does not follow TTT that
[an] amended claim becomes so perfect in
its description that no one could devise an
equivalent.’’). Lilly’s burden was to show
that pemetrexed ditromethamine was ‘‘peripheral, or not directly relevant,’’ to its
amendment, Festo X, 344 F.3d at 1369.
And as we concluded above, Lilly has done
so.
In addition, the Appellants maintain
that when a patentee submits an amendment adding two claim limitations, it cannot later argue that the reason for the
amendment was tangential to an accused
equivalent containing only one of the added limitations simply because the second
limitation was unnecessary to overcome
the prior art. They offer Felix v. American Honda Motor Co., 562 F.3d 1167
(Fed. Cir. 2009), as an illustration of this
principle.5 In that case, we held that prospresented in these appeals. Here, in applying
the Supreme Court’s framework, we find the

ELI LILLY AND CO. v. HOSPIRA, INC.
Cite as 933 F.3d 1320 (Fed. Cir. 2019)

ecution history estoppel applied to a claim
directed to a vehicle bed storage system—
limited in response to a rejection to having
a channel with a flange and a gasket
mounted on that flange—barring assertion
of equivalence with respect to a product
that met the channel aspect, but not the
gasket aspect, of the limitation. Id. at
1184–85.
But as Lilly points out, this holding was
determined by that patent’s prosecution
history, Felix, 562 F.3d at 1184, and we
have also held that prosecution history estoppel does not apply in similar circumstances, where the prosecution record differed. See, e.g., Regents, 517 F.3d at
1376–78 (amendment narrowing ‘‘disabling
hybridization capacity of [nucleic acid] sequences’’ to methods using a ‘‘blocking
nucleic acid’’ was merely tangential to unclaimed repetitive sequence nucleic acids);
Insituform Techs., Inc. v. CAT Contracting, Inc., 385 F.3d 1360, 1368 (Fed. Cir.
2004) (amendment narrowing method of
inserting resin into tube using a vacuum
to one using ‘‘a cup’’ to do so was merely
tangential to a multiple cup embodiment
because the number of cups bore no relationship to the cited prior art or the rationale behind the narrowing amendment).
Thus, our cases demonstrate that prosecution history estoppel is resistant to the
rigid legal formulae that Appellants seek
to extract from them. See Intervet Inc. v.
Merial Ltd., 617 F.3d 1282, 1291 (Fed.
Cir. 2010) (‘‘[T]here is no hard-and-fast
test for what is and what is not a tangential relation TTTT’’).
analogies to other cases less helpful than a
direct consideration of the specific record of
this case and what it shows about the reason
for amendment and the relation of that reason to the asserted equivalent. This case-specific focus, within the governing framework,
comports with the equitable nature of prosecution history estoppel. See Festo VIII, 535
U.S. at 738, 122 S.Ct. 1831 (‘‘[The Supreme

1333

[20] Finally, DRL also contends that
our precedent squarely forecloses Lilly’s
tangentiality argument, and it invites us to
read those cases to hold that ‘‘where the
reason for the amendment and the equivalent in question both relate to the same
claim element, the tangential exception
does not apply.’’ DRL Br. 47. We decline
this invitation because such a bright-line
rule is both contrary to the equitable nature of prosecution history estoppel, as
articulated in Festo VIII, 535 U.S. at 738,
122 S.Ct. 1831, and inconsistent with the
equitable spirit that animates the doctrine
of equivalents, see Graver Tank, 339 U.S.
at 608–09, 70 S.Ct. 854 (the doctrine is one
of ‘‘wholesome realism’’). Instead, we reaffirm that whether an amendment was
merely tangential to an equivalent must be
decided in the context of the invention
disclosed in the patent and the prosecution
history. Festo X, 344 F.3d at 1370.
DRL’s intuition—that an amendment
that narrows an existing claim element
evinces an intention to relinquish that
claim scope—is often correct. Indeed, as
we have found in previous cases, it is a
powerful indication that an amendment
was not merely tangential. See, e.g.,
Honeywell Int’l, Inc. v. Hamilton Sundstrand Corp., 523 F.3d 1304, 1315–16 (Fed.
Cir. 2008); Biagro W. Sales, Inc. v. Grow
More, Inc., 423 F.3d 1296, 1306 (Fed. Cir.
2005). But here, we conclude that this consideration is not dispositive because the
rest of the prosecution history, and
the ’209 patent itself, show that it is implausible that the reason for Lilly’s amendCourt has] consistently applied the doctrine in
a flexible way, not a rigid one.’’); cf. Heckler v.
Cmty. Health Servs. of Crawford Cty., Inc., 467
U.S. 51, 59, 104 S.Ct. 2218, 81 L.Ed.2d 42
(1984) (‘‘Estoppel is an equitable doctrine invoked to avoid injustice in particular cases.
TTT [and] a hallmark of the doctrine is its
flexible application TTTT’’).

1334

933 FEDERAL REPORTER, 3d SERIES

ment was to surrender other pemetrexed
salts. Indeed, such a relinquishment would
effectively dedicate the entirety of Lilly’s
invention to the public and thereby render
the ’209 patent worthless, and it would
have been irrelevant for distinguishing the
prior art. Again, the prosecution history
strongly indicates a less sweeping and
more sensible reason for Lilly’s amendment: to surrender antifolates other than
pemetrexed. Thus, we conclude on this
prosecution record that Lilly’s amendment
was merely tangential to pemetrexed ditromethamine.
2.

Disclosure-Dedication Rule

[21] DRL next argues that the disclosure-dedication rule bars Lilly from asserting infringement under the doctrine of
equivalents. The ’209 patent sets forth its
invention as an improved method of administering antifolates, ’209 patent col. 2 ll.
47–58, and teaches that the derivatives
described in the Akimoto patent are preferred examples of antifolates, id. col. 4 ll.
34–40. DRL contends that one of these
derivatives is pemetrexed ditromethamine
and that it was dedicated to the public
when Lilly declined to claim it. DRL asserts that the district court erred because
it both required express incorporation of
Akimoto by reference into the ’209 patent
and concluded that Akimoto does not specifically disclose pemetrexed ditromethamine.
Lilly counters that the disclosure-dedication rule requires express disclosure of the
subject matter in question in the specification except in narrow circumstances, such
as when that subject matter is disclosed in
a priority application, see Abbott Labs. v.
Sandoz, Inc., 566 F.3d 1282, 1297 (Fed.
Cir. 2009), or prior art expressly incorporated by reference, SanDisk, 695 F.3d at
1366. Lilly also argues that the district
court correctly determined that the relevant portion of Akimoto discloses only a
generic formula from which a skilled arti-

san would not be able to recognize pemetrexed ditromethamine.
[22] We agree with Lilly and hold that
the disclosure-dedication rule is inapplicable to this case because the ’209 patent
does not disclose methods of treatment
using pemetrexed ditromethamine, and, as
a result, Lilly could not have dedicated
such a method to the public.
[23, 24] Under the disclosure-dedication rule, subject matter disclosed by a
patentee, but not claimed, is considered
dedicated to the public. See Johnson &
Johnston, 285 F.3d at 1054. The reason for
the doctrine is that members of the public
reading a disclosure of particular subject
matter are entitled, absent a claim to it, to
assume that it is not patented and therefore dedicated to the public (unless, for
example, claimed in a continuation or other
application based on the disclosure). Cf.
Maxwell, 86 F.3d at 1107 (failure to claim
inventive subject matter ‘‘is clearly contrary to 35 U.S.C. § 112, which requires
that a patent applicant ‘particularly point[ ]
out and distinctly claim[ ] the subject matter which the applicant regards as his invention’ ’’). Subject matter is considered
disclosed when a skilled artisan ‘‘can understand the unclaimed disclosed teaching
upon reading the written description,’’ but
not ‘‘any generic reference TTT necessarily
dedicates all members of that particular
genus.’’ PSC Comput. Prod., Inc. v. Foxconn Int’l, Inc., 355 F.3d 1353, 1360 (Fed.
Cir. 2004).
DRL further contends that the disclosure-dedication rule does not impose a
§ 112 requirement for sufficiency of disclosure, see Toro Co. v. White Consol. Indus.,
Inc., 383 F.3d 1326, 1334 (Fed. Cir. 2004),
and that a skilled artisan reading the ’209
patent would both look for a disclosure of
pemetrexed in Akimoto, and also seek to
use a well-known cation like tromethamine,
which it maintains is generically disclosed

ELI LILLY AND CO. v. HOSPIRA, INC.
Cite as 933 F.3d 1320 (Fed. Cir. 2019)

in Akimoto in the form of ‘‘substituted
ammonium’’ base salts.
We are unpersuaded by DRL’s arguments. As the district court noted, Akimoto’s formula, col. 1 l. 49–col. 2 l. 3, includes
seven functional group variables and encompasses thousands of compounds, and
while Akimoto discloses about fifty exemplary compounds, none of them is pemetrexed. Moreover, Akimoto does not even
disclose tromethamine expressly but only
generically among dozens of other salts. At
most, Akimoto discloses ammonium salts
generally, which is far from a description
of tromethamine. In similar circumstances,
we have held that ‘‘sufficient description of
a genus’’ requires that a skilled artisan be
able to ‘‘ ‘visualize or recognize’ the members of the genus.’’ See Ariad Pharm., Inc.
v. Eli Lilly & Co., 598 F.3d 1336, 1350
(Fed. Cir. 2010) (quoting Regents of the
Univ. of Cal. v. Eli Lilly & Co., 119 F.3d
1559, 1568–69 (Fed. Cir. 1997)). Akimoto
does not so describe pemetrexed ditromethamine, and we see no reason why a
skilled artisan would set out on DRL’s
winding path to cobble together pemetrexed ditromethamine. While the ’209 patent teaches that pemetrexed disodium is
the ‘‘most preferred’’ antifolate, that
knowledge would not change the skilled
artisan’s understanding of what Akimoto
discloses.
Because Akimoto contains only a ‘‘generic reference’’ to pemetrexed ditromethamine, PSC Comput., 355 F.3d at 1360,
we conclude that it was not dedicated to
the public.
3.

Merits

[25, 26] A component in an accused
product or process may be equivalent to a
claim element if the two are insubstantially
different with respect to the ‘‘role played
by [the] element in the context of the
specific patent claim.’’ Warner-Jenkinson,
520 U.S. at 39–40, 117 S.Ct. 1040. Relevant

1335

differences can include the function each
serves, the way in which each works, and
the result each obtains, id. at 39, 117 S.Ct.
1040, and, especially in biochemical cases,
structural or pharmacological characteristics, Mylan Inst. LLC v. Aurobindo
Pharm. Ltd., 857 F.3d 858, 869 (Fed. Cir.
2017). ‘‘The determination of equivalency
vel non is a question of fact,’’ Canton Bio
Med., Inc. v. Integrated Liner Techs., Inc.,
216 F.3d 1367, 1369 (Fed. Cir. 2000) (citing
Pall Corp. v. Micron Separations, Inc., 66
F.3d 1211, 1218 (Fed. Cir. 1995)), which we
review for clear error in an appeal from a
bench trial, Pfizer, Inc. v. Apotex, Inc., 480
F.3d 1348, 1359 (Fed. Cir. 2007).
[27] DRL argues that the district
court erred in finding that its proposed
pemetrexed ditromethamine product will
be administered in an insubstantially different way from the claimed method. DRL
maintains that the district court focused on
the fact that each product treats the same
diseases by delivering pemetrexed intravenously, when the relevant context is the
manner of administration. In DRL’s view,
the chemical differences between sodium
and tromethamine—e.g., pH, buffering capacity, or solubility—DRL Br. 20–21, render the methods in which each is administered to a patient substantially different.
Lilly responds that the relevant context
is treatment of a patient ‘‘in need of chemotherapeutic treatment.’’ ’209 patent
claim 12. Lilly agrees with the district
court that the chemical differences between sodium and tromethamine are clinically irrelevant because each undisputedly
lacks therapeutic activity.
We see no clear error in the district
court’s findings. As the district court
found, DRL’s product will accomplish an
identical aim, furnishing the same amount
of pemetrexed to active sites in the body;
in exactly the same way, by diluting a
pemetrexed salt in an aqueous solution for

1336

933 FEDERAL REPORTER, 3d SERIES

intravenous administration. Indeed, after
dilution and immediately before administration, DRL’s product is functionally identical to Lilly’s in that it contains the same
amount of diluted pemetrexed anion. DRL
J.A. 8557. And DRL declines to identify
the relevance of any of the chemical differences it identifies. See UCB, Inc. v. Watson Labs. Inc., 927 F.3d 1272, 1284–86
(Fed. Cir. 2019) (chemical differences may
not be relevant if the equivalent has known
interchangeability in the context of the
claimed composition). We find DRL’s arguments unconvincing and therefore affirm
the district court’s findings.
In summary, these cases are eminently
suitable for application of the doctrine of
equivalents, and we conclude that neither
prosecution history estoppel nor the disclosure-dedication rule bars Lilly from asserting infringement through equivalence.
CONCLUSION

MTD PRODUCTS INC., Appellant
v.
Andrei IANCU, Under Secretary of Commerce for Intellectual Property and
Director of the United States Patent
and Trademark Office, Intervenor
2017-2292
United States Court of Appeals,
Federal Circuit.
Decided: August 12, 2019
Background: Challenger filed petition for
inter partes review of patent disclosing a
steering and driving system for zero turn
radius (ZTR) vehicles, with specific reference to ZTR lawn mowers. The United
States Patent and Trademark Office, Patent Trial and Appeal Board (PTAB), No.
IPR2016-00194, 2017 WL 1969747, determined that the challenged claims were obvious. Patent owner appealed.

We have fully considered each party’s
further arguments but find them unpersuasive. For the foregoing reasons, we reverse the district court’s finding of literal
infringement in the Hospira Decision but
affirm its judgment of infringement under
the doctrine of equivalents. The judgment
of infringement under the doctrine of
equivalents in the DRL Decision is likewise affirmed.

Holdings: The Court of Appeals, Stoll,
Circuit Judge, held that term ‘‘mechanical
control assembly … configured to’’ perform certain functions in independent
claims was governed by statute governing
means-plus-function limitations.

AFFIRMED-IN-PART
AND
REVERSED-IN-PART IN APPEAL NOS.
2018-2126, 2018-2127

Whether claim language invokes statute governing means-plus-function limitations is a legal question of claim construction that the Court of Appeals reviews de
novo. 35 U.S.C.A. § 112.

AFFIRMED IN APPEAL NO. 20182128
COSTS
Each party shall bear its own costs.

,

Vacated and remanded.
1. Patents O1848, 1970(13)

2. Patents O1138
The Court of Appeals reviews the Patent Trial and Appeal Board’s (PTAB’s)
factual findings underlying the inquiry of
whether the statute governing means-plusfunction limitations applies for substantial
evidence. 35 U.S.C.A. § 112.

Case: 18-2128

Document: 78

Page: 1

Filed: 08/09/2019

United States Court of Appeals
for the Federal Circuit
__________________________

ELI LILLY AND COMPANY,
Plaintiff - Appellee
v.
DR. REDDY'S LABORATORIES, LTD., DR.
REDDY'S LABORATORIES, INC.,
Defendants - Appellants
__________________________
2018-2128
__________________________
Appeal from the United States District Court for the
Southern District of Indiana in No. 1:16-cv-00308-TWPMPB, Judge Tanya Walton Pratt.
__________________________
JUDGMENT
__________________________
THIS CAUSE having been considered, it is
ORDERED AND ADJUDGED:
AFFIRMED
ENTERED BY ORDER OF THE COURT

Case: 18-2128

August 9, 2019

Document: 78

Page: 2

Filed: 08/09/2019

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

